IN

 

Case No. 20-7541

 

THE SUPREME COURT OF THE UNITED STATES

 

 

 

BILLIAN JO, as Personal Representative of the Estate of Mee Jin-Jo,
Petitioner,
v.
JPMC SPECIALTY MORTGAGE LLC,
Respondent.

Proof of Service
I, Billian Jo, do swear or declare that on this date,
July 8, 2021, as required by Supreme Court Rule 29 I have
served the enclosed PETITION FOR REHEARING on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

Kenneth Flickinger
Eckert, Seamans, Cherin & Mellott, LLC
10 Bank Street, Suit 700
White Plains, New York 10606
914-286-2817

All parties required to be served have been served.
Per Supreme Court Rule 29(5)(c) and 28 U. S. C. §1746,
I declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 8, 2021.

Billian Jo

666 W Robinwood St
Detroit, MI 48203
(313) 310-7769
